<html>
<title> - HEARING ON THE NOMINATIONS OF BETH HARWELL AND BRIAN NOLAND TO BE MEMBERS OF THE BOARD OF DIRECTORS, AND KATHERINE CRYTZER TO BE INSPECTOR GENERAL, OF THE TENNESSEE VALLEY AUTHORITY</title>
<body><pre>[Senate Hearing 116-237]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-237

   HEARING ON THE NOMINATIONS OF BETH HARWELL AND BRIAN NOLAND TO BE 
    MEMBERS OF THE BOARD OF DIRECTORS, AND KATHERINE CRYTZER TO BE 
          INSPECTOR GENERAL, OF THE TENNESSEE VALLEY AUTHORITY

=======================================================================

                                HEARING

                              BEFORE THE

                       SUBCOMMITTEE ON CLEAN AIR 
                           AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 19, 2020

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
  
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 


      Available via the World Wide Web: http://www.govinfo.gov

                               __________

                
                 U.S. GOVERNMENT PUBLISHING OFFICE

40-943PDF               WASHINGTON : 2020




               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director
                              ----------                              

              Subcommittee on Clean Air and Nuclear Safety

                     MIKE BRAUN, Indiana, Chairman
JAMES M. INHOFE, Oklahoma            SHELDON WHITEHOUSE, Rhode Island, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE ROUNDS, South Dakota            BERNARD SANDERS, Vermont
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
JONI ERNST, Iowa                     EDWARD J. MARKEY, Massachusetts
JOHN BARRASSO, Wyoming (ex officio)  TAMMY DUCKWORTH, Illinois
                                     THOMAS R. CARPER, Delaware (ex officio)
                                         
                                         

                                         
                            C O N T E N T S

                              ----------                              
                                                                   Page

                              MAY 19, 2020
                           OPENING STATEMENTS

Braun, Hon. Mike, U.S. Senator from the State of Indiana.........     4
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     5
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware, 
  prepared statement.............................................    62

                               WITNESSES

Alexander, Hon. Lamar, U.S. Senator from the State of Tennessee..     2
Blackburn, Hon. Marsha, U.S. Senator from the State of Tennessee.     3
Harwell, Beth, nominee to be a Member of the Board of Directors, 
  Tennessee Valley Authority.....................................     6
    Prepared statement...........................................     8
    Response to an additional question from Senator Braun........    10
    Responses to additional questions from:
        Senator Carper...........................................    10
        Senator Sanders..........................................    17
Noland, Brian, nominee to be a Member of the Board of Directors, 
  Tennessee Valley Authority.....................................    20
    Prepared statement...........................................    22
    Response to an additional question from Senator Braun........    25
    Responses to additional questions from:
        Senator Carper...........................................    26
        Senator Sanders..........................................    35
Crytzer, Katherine, nominee to be Inspector General, Tennessee 
  Valley Authority...............................................    39
    Prepared statement...........................................    41
    Response to an additional question from Senator Braun........    43
    Responses to additional questions from Senator Carper........    43




 
   HEARING ON THE NOMINATIONS OF BETH HARWELL AND BRIAN NOLAND TO BE 
    MEMBERS OF THE BOARD OF DIRECTORS, AND KATHERINE CRYTZER TO BE 
          INSPECTOR GENERAL, OF THE TENNESSEE VALLEY AUTHORITY

                              ----------                              


                         TUESDAY, MAY 19, 2020

                               U.S. Senate,
         Committee on Environment and Public Works,
              Subcommittee on Clean Air and Nuclear Safety,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 3:02 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Mike Braun 
(Chairman of the Subcommittee) presiding.
    Present: Senators Braun, Whitehouse, Sullivan, Boozman, 
Wicker, Ernst, and Carper.
    Senator Braun. Good afternoon. This hearing of the Clean 
Air and Nuclear Safety Subcommittee is called to order.
    Today we will be considering three nominations for the TVA. 
This afternoon we will be hearing from Beth Harwell, Brian 
Noland, who President Trump has nominated to the TVA Board of 
Directors; and Katherine Crytzer, who has been nominated to the 
position of Inspector General of the TVA.
    I would like to welcome you all here today.
    In compliance with the Senate's social distancing 
guidelines, our members have the option of attending virtually. 
This is a first for this Subcommittee to do so, so please 
pardon any technical issues. It seems to have been going pretty 
well, though, so far, in other hearings.
    If confirmed, each of you will be tasked with ensuring that 
the TVA's broad strategies, goals, objectives, are adequate for 
ratepayers in the region, and that TVA pursues an agenda that 
is in the best interest of the United States.
    This afternoon, we are honored to be joined by both Senator 
Alexander and Senator Blackburn, who wanted to be here today to 
introduce the President's nominees.
    So, Senator Alexander, you are coming from afar. You may 
proceed.

              STATEMENT OF HON. LAMAR ALEXANDER, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Alexander. Thank you, Mr. Chairman, and to Ranking 
Member Whitehouse and to my colleague Senator Blackburn.
    I am delighted today to have a chance to introduce to the 
Committee and to the Senate President Trump's nominees for the 
TVA board, Elizabeth Harwell and Brian Noland.
    As the Chairman indicated, TVA is a big and important 
institution. It is a $10 billion a year business and serves 
residents in seven States by providing electricity, and a 
majority of those are in Tennessee.
    In my opinion, the TVA has been on a good track for the 
last few years. The scoreboard for TVA is its rates. According 
to TVA, its residential rates are in the bottom 25 percent, the 
cheapest 25 percent residential rates, and its business rates 
are in the cheapest 10 percent of business rates in the 
country. It has been reducing its debt, strengthening its 
pension fund.
    Of special interest I think to Senator Braun and Senator 
Whitehouse, during this period of reduced demand, TVA officials 
tell us that they produce 85 percent of their electricity using 
emission-free nuclear power and hydropower.
    I am especially delighted that these two individuals, Beth 
Harwell and Brian Noland, have been nominated to serve on the 
TVA board. They are two of our State's most distinguished 
residents.
    I have admired Beth Harwell's leadership, her style of 
leadership, ever since she was first elected to the Tennessee 
House of Representatives in 1988. Her constituents liked what 
she did, and so did her colleagues, because they eventually 
elected her speaker of the house. She was the first female 
speaker in the history of our State.
    She taught at Belmont University, has been active in a 
variety of enterprises in Nashville, which is her hometown. She 
knows Tennessee from Memphis to Mountain City which is where 70 
percent of the TVA ratepayers live.
    Speaking of Mountain City, the other nominee, Brian Noland, 
is distinguished in a different way; He lives in that part of 
the State that we call upper east Tennessee. He is president of 
East Tennessee State University, one of the largest 
universities in our State. He formerly has been president of 
the West Virginia Higher Education Association. His colleagues 
in higher education have honored him by electing him to the 
board of directors of the American Council on Education. So he 
knows administration, we [inaudible] on the board of such a 
large entity.
    One other thing I should say is that these two seats are 
vacant today. Their predecessors' terms expired a year ago. The 
previous occupants left their seats in December. So I am 
especially grateful to the Committee for moving these nominees 
ahead. I hope they will be considered on the floor very 
quickly.
    There is one other person I want to mention today, a person 
with some Tennessee background, Katherine Crytzer, who is 
nominated to be Inspector General of TVA. She is a native of 
east Tennessee, she [inaudible] Tennessee State University. She 
worked at the Department of Justice in more than one capacity, 
and she was Assistant U.S. Attorney in Kentucky.
    So thank you very much for allowing me this time to express 
my support of two nominees for the board of the TVA, two of the 
most important positions in our State.
    Thank you very much.
    Senator Braun. Thank you, Senator.
    Senator Blackburn, you are now recognized.

              STATEMENT OF HON. MARSHA BLACKBURN, 
            U.S. SENATOR FROM THE STATE OF TENNESSEE

    Senator Blackburn. Thank you, Mr. Chairman.
    It is really truly a pleasure and an honor to join Senator 
Alexander to introduce to the Committee two nominees for the 
board, and also the third nominee, which is to be the Inspector 
General for the TVA.
    These seats on the board have been vacant for some time, as 
Senator Alexander just said. So it is a pleasure to bring 
forward these three Tennesseans.
    TVA is the largest public power provider in the United 
States. Their mission is to provide reliable, low cost power to 
the people of the seven State Tennessee Valley region. With 
that comes great responsibility to defend the actions that are 
scrutinized by the public, much more so than other large 
investor owned utilities. The board's mission is to help guide 
TVA in a way that helps Tennesseans thrive, especially in rural 
areas.
    These nominees have had extensive and unique careers that 
will provide valuable insight to the TVA board. Dr. Beth 
Harwell has nearly three decades of legislative experience, and 
most recently made history, being elected as the first female 
speaker of the house in the Tennessee General Assembly. Her 
work in the legislature with the State's budget will prove 
invaluable when making decisions regarding TVA's debt load and 
their bond ratings.
    As speaker of the house, she helped lead the State of 
Tennessee to balanced budgets and a fully funded pension. Also, 
she helped lead to a Triple A bond rating.
    Dr. Harwell graduated from Lipscomb University and received 
her master's and Ph.D. from Vanderbilt University. She 
previously taught at Belmont University and is now a visiting 
professor at Middle Tennessee State University.
    Dr. Harwell, it is such an honor to introduce you.
    Brian Noland, who has experience running one of Tennessee's 
public universities, will also be a valuable asset on the TVA 
board. He became the ninth president of East Tennessee State 
University in January 2012, after serving for 6 years as 
chancellor of the West Virginia Higher Education System. Under 
his leadership, ETSU has undertaken numerous construction 
projects across their campus. Past and current major projects 
include the construction of a performing arts center, 
[inaudible], creation of a research and education center, and 
extensive renovation to the university center.
    For an industry with massive capital investment, like that 
of utilities, his experience in the area will undoubtedly prove 
to be an asset for Tennessee. And it is such an honor to bring 
him forward.
    Katie Crytzer will bring valuable expertise as a Federal 
prosecutor to the TVA Inspector General position. After growing 
up in Knoxville, she attended Middle Tennessee State University 
and received her J.D. magna cum laude from Antonin Scalia Law 
School at George Mason University. She went on to clerk for the 
U.S. Court of Appeals for the Eighth Circuit, and then 
practiced law in our Nation's capital.
    Katie then joined the Department of Justice, first as an 
assistant U.S. attorney, where she successfully led multiple 
complex fraud investigations. She focused on the prosecution of 
computer fraud and drug crimes to tackle the opioid epidemic.
    She now serves our country as the Acting Deputy Assistant 
Attorney General in the Office of Legal Policy. I am delighted 
that she is taking over this challenge at TVA. She has great 
potential to bring discipline, accountability, and integrity to 
the highest levels of leadership at the TVA.
    Their debt currently stands at $22 billion, an amount that 
has slowly [inaudible] in recent years. I hope the agency 
continues to work toward fiscal responsibility and makes more 
efforts to reduce that debt under the steadfast leadership of 
its new and current TVA leadership.
    So thank you, Mr. Chairman, for giving me the opportunity 
to introduce these Tennesseans.

             OPENING STATEMENT OF HON. MIKE BRAUN, 
             U.S. SENATOR FROM THE STATE OF INDIANA

    Senator Braun. Thank you, Senator Blackburn.
    In June 2019, William Kilbride came before this 
Subcommittee as we reviewed his nomination for the board of 
directors. At the time, I noted my desire to see the TVA 
continue to accomplish its dual mandate to serve the best 
interests of its customers, also the best interests of the 
American people as a whole.
    Today the TVA is executing this dual mission by securing 
one of the NRC's first early site permits to build a 
demonstration small module nuclear reactor at the utility's 
Clinch River nuclear site.
    Just last month the TVA signed a nuclear research 
memorandum of understanding with the University of Tennessee on 
advanced reactor technologies. This MOU follows similar 
agreements between TVA and Oak Ridge Laboratory.
    These developments are encouraging, could be laying the 
foundation for what lies ahead in terms of carbon-free electric 
generation. If done right, it will hold the potential to 
substantially reduce cost and burn more sustainably fuels that 
will help the environment.
    At the same time, small module reactors promise to operate 
more safely than our Nation's already impressive record of 
accomplishment in nuclear performance.
    However, in order to make sure the TVA stays on track, it 
needs a fully staffed, qualified board of directors and a 
Senate confirmed inspector general with the independence to ask 
hard questions. Accountability, ensuring transparency.
    As I highlighted when Mr. Kilbride was before this 
Subcommittee, the TVA continues to face challenges with 
whistleblower reporting. It is particularly troubling that 
recently whistleblowers noted that the TVA has violated 
numerous workplace safety requirements and downplayed safety 
complaints raised by employees.
    Whistleblowers also accuse the TVA of inappropriately 
retaliating against those who file such complaints. The NRC is 
investigating these incidents, and complaints like these make 
it even more critical that the TVA has a Senate confirmed 
inspector general.
    All of the innovation and investment being made to achieve 
market competitive advanced nuclear technology could be 
threatened by one safety incident. We cannot take that chance.
    I am pleased that the Senate has returned to process your 
nominations. In the case of Ms. Crytzer, she has been nominated 
to fill an inspector general position that has been vacant for 
more than 2 years. It is hard to believe, more than 2 years.
    Given both the enormous opportunities and challenges facing 
the TVA today, I look forward to today's hearing and getting 
each of you confirmed and in place as quickly as possible.
    Now I would like to recognize Ranking Member Senator 
Whitehouse for his opening statement.
    Senator.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. Thank you, Mr. Chairman.
    To all the members of the Subcommittee and to the nominees, 
welcome.
    Last Congress, this Subcommittee helped clear five new 
members onto the Tennessee Valley Authority. This Congress, we 
have already filled one board vacancy, and today we hear from 
two additional nominees to fill the final two vacancies. We 
will also hear from the nominee to fill the important role of 
Inspector General.
    In these challenging times, public utilities, including the 
TVA, have a big role to play in ensuring that the American 
people have affordable electricity. The TVA has been providing 
cheaper and cleaner energy for its customers during the 
economic fallout of this pandemic. In fact, the TVA notes that 
energy costs for consumers were 4 percent lower in the first 
part of this year compared to last. The Authority's chief 
financial officer reports most of this decline in cost is 
attributable to the TVA adopting clean sources of energy, like 
renewables and nuclear.
    I am very glad to work with Chairman Braun on the NRC 
issues that have helped pave the way for new nuclear 
technologies.
    What TVA has done is no small feat. Nearly 60 years ago, 
the TVA derived more than two-thirds of its power from coal. In 
the first half of this year, that proportion had fallen to 12 
percent. That means that TVA got more power from renewables 
than coal during the first 3 months of 2020. At one point, TVA 
actually shut down all its coal plants, because it didn't need 
them.
    The Institute of Energy, Economics, and Financial Analysis 
has observed this trend across the United States during the 
pandemic: Electricity from clean energy sources exceeding that 
of coal for a record 40 straight days. And contrary to what 
some think will happen as we expand renewables on our grid, 
there has been no significant interruption in service for 
consumers.
    This brings me to my two points today. First, the Authority 
must remain a non-partisan and independent regulator. In recent 
years, the TVA has voted to close its old, polluting resources 
despite political pressure from the Trump administration and 
Kentucky Republicans to keep them open. The TVA must be guided 
by the facts and the interests of its consumers, not by 
political pressure.
    I hope to hear a strong commitment from the nominees today 
that your regulatory decisions will honor those priorities.
    Second, given the Authority's history and unique public 
charter, it should take particular care to avoid the fossil 
fuel industry's anti-climate efforts. I would like to hear a 
commitment that the nominees will work to ensure that the 
Authority won't fall victim to the fossil fuel industry's long 
campaign against climate action and clean air regulations.
    I note that President Noland is here from East Tennessee 
State University, where they don't just believe in climate 
change, they teach climate science. So I appreciate that very 
much.
    The push toward clean, cheap energy requires independent 
and clear thinking. As the Nation's largest public utility, the 
Authority leads the way, and it should continue to do so. 
Regulators are there to ensure that prices are fair to 
consumers, and rates and rules are not compromised in the 
service of special interests.
    I look forward to hearing from the witnesses, and thank 
you, Chairman Braun.
    Senator Braun. Thank you, Senator.
    I will now recognize each of you for 5 minutes of your 
opening statement. I want to remind you that your written 
testimony will be part of the record. We look forward to the 
testimony.
    Dr. Harwell, you may begin.

STATEMENT OF BETH HARWELL, NOMINEE TO BE A MEMBER OF THE BOARD 
            OF DIRECTORS, TENNESSEE VALLEY AUTHORITY

    Ms. Harwell. Chairman Braun, Ranking Member Whitehouse, and 
distinguished members of the Committee, my name is Beth 
Harwell, and I have the great honor of being nominated by 
President Trump to the Tennessee Valley Authority Board of 
Directors.
    As a young girl growing up in Pennsylvania, I became 
fascinated with the televised Watergate hearings. I would watch 
them for hours with my grandmother. It was during that time 
that I became interested in government and public service. 
Never, though, did I dream that one day I would be sitting 
before a U.S. Senate committee myself. So it is an honor and 
privilege to be here today, and I thank you for giving me this 
opportunity.
    I especially want to thank Senator Lamar Alexander and 
Senator Marsha Blackburn of my home State of Tennessee for 
supporting my nomination to the TVA board.
    By way of introduction, I have lived in Nashville, 
Tennessee, since the age of 16 when I moved there to attend 
David Lipscomb University. In the following decades, I worked 
as a faculty member at a local university, ran for a seat in 
the State House, raised a family, served as the chair of the 
Tennessee Republican Party, and ultimately was elected speaker 
of the Tennessee House of Representatives. As speaker, I worked 
every day to improve the lives of Tennesseans, very similar to 
the mission of TVA, ``to make life better for the people of the 
Tennessee Valley.''
    In fact, the three areas of focus of the TVA--energy, 
environment, and economic development--are ones in which I have 
worked and led on throughout my time in the Tennessee 
legislature.
    I have traveled our great State many times over, and I have 
seen firsthand TVA's impact on counties and cities. I know what 
it means to residents of a rural county in west Tennessee to 
land a new business thanks to TVA's assistance.
    For many years, my family and I have enjoyed boating on TVA 
lakes, thanks to TVA's commitment to clean and safe water. I 
have attended meetings at the TVA headquarters and always come 
away with a greater understanding of and appreciation for the 
scope of the organization's work.
    With my deep knowledge of State government and an extensive 
network of contacts across Tennessee and other TVA States, I am 
confident I could be helpful in the board's work.
    Before closing, I would like to pivot to one other point 
that I think is important for you to know. At my core, I am a 
fiscal conservative. I firmly believe that strong fiscal 
management is a path to investment and opportunities.
    As speaker, I presided over eight consecutive balanced 
budgets. When we discovered that our pension plan was not 
financially sustainable, we reformed the system, and today, the 
Tennessee Consolidated Retirement System is regarded as one of 
the healthiest pension plans in the Nation.
    I share these experiences with you because I will bring 
that same sense of fiscal responsibility to my work as a TVA 
board member. The 9 million people in the Tennessee Valley 
should expect and deserve no less than this from a board 
member.
    TVA plays an important role in the States in which it 
operates, and I would be grateful for the opportunity to work 
with other board members to advance its work during these very 
challenging times.
    Thank you again for this opportunity to be with you today 
and for your consideration of my nomination. I would be happy 
to answer any questions.
    [The prepared statement of Ms. Harwell follows:]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT] 
    

    
    Senator Braun. Thank you, Dr. Harwell.
    Dr. Noland.

STATEMENT OF BRIAN NOLAND, NOMINEE TO BE A MEMBER OF THE BOARD 
            OF DIRECTORS, TENNESSEE VALLEY AUTHORITY

    Mr. Noland. Chairman Braun, Ranking Member Whitehouse, and 
members of the Committee, thank you very much for the 
opportunity to appear before you today.
    I am honored to have been nominated by the President to 
serve on the Tennessee Valley Authority Board of Directors. I 
would like to thank Senator Alexander, as well as Senator 
Blackburn, for their support, and to all of you for taking the 
time today to consider my nomination.
    In 2012, I had the privilege of moving my family to east 
Tennessee, back to an area where our family has deep roots, to 
serve as the president of East Tennessee State University. 
Having spent my entire professional career in higher education, 
I was honored to be given the opportunity to serve a university 
community in its chief executive officer position, providing 
strategic vision for that institution.
    Not only was I drawn to ETSU because of our connection to 
the region, but I was also drawn by our school's founding 
mission in 1911 to improve the quality of life for the people 
of the Appalachian Highlands, a segment of TVA's service area.
    In 1933, when TVA was formed, it also had a similar mission 
to improve the quality of life for the people of the Tennessee 
Valley. Watching this mission play out on a daily basis across 
my region gives me promise for the opportunities on the horizon 
for TVA to continue to fulfill its mission to improve the lives 
of the more than 10 million individuals in our service area. 
This shared mission and the understanding of how this mission 
can be implemented has provided me with integral insights into 
setting a strategic vision for the TVA as a member of its Board 
of Directors.
    As I look across my region of east Tennessee, it is evident 
that TVA has been committed to this mission throughout its 
history, and has honed its mission as things have evolved. With 
longstanding ties to the region in which I live, I have 
witnessed the firsthand the impact TVA has on its citizenry, 
not only in terms of providing energy resources, but through 
river and land management, recreational activities, and 
economic development.
    Having lived and worked in the State of West Virginia, a 
State with similar rural communities with similar challenges, I 
can attend to the benefits that the TVA has provided to the 
rural communities in our State and each of the States that the 
TVA calls home. For TVA, economic development is an inherent 
part of its mission.
    Economic development is also an inherent part of the 
mission of higher education, for we are a driver to train and 
educate the work force. I was called into a career in higher 
education, because I believe deeply in the value that education 
can provide our society to better all. That passion goes simply 
beyond providing an education, but it is ensuring that students 
have the opportunity to practice their newly developed skills 
in fulfilling and rewarding careers. This happens through the 
work of economic development.
    Through TVA's investments of more than $11 billion, they 
have created 65,000 jobs in 2019 alone. That is a testament to 
the continued work in this space.
    Another privilege of serving in higher education is that I 
have been able to gain a deep appreciation of the impact that 
research and innovation can have on our society. Research and 
innovation drives businesses, industries, healthcare 
facilities, production companies, and energy providers. 
Research is the innate work of higher education, for it helps 
to advance our society and continues to improve the lives of 
others.
    This work is no different in the energy sector in which we 
continually seek ways to improve energy production, develop new 
energy sources, and enhance the use of energy. TVA is 
instrumental in energy enterprise research and technology 
across the Tennessee Valley.
    Serving as president of a major public university and 
engaging with colleagues across the State, I have gained a deep 
appreciation and insight into the needs of Tennesseans, and 
Tennessee encompasses TVA's largest single service area by 
State.
    I believe my background and experience has prepared me for 
the challenge and responsibility of joining the TVA board.
    Mr. Chairman and members of this Committee, I welcome the 
opportunity to be considered to serve on the TVA Board of 
Directors and to assist the TVA to continue to fulfill its 
mission of service to the people of the Tennessee Valley.
    I appreciate your consideration of my nomination, and thank 
you, once again, for the opportunity to be here today. I look 
forward to the opportunity to address questions.
    Thank you, Mr. Chair.
    [The prepared statement of Mr. Noland follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     

    
    Senator Braun. Thank you.
    Ms. Crytzer.

    STATEMENT OF KATHERINE CRYTZER, NOMINEE TO BE INSPECTOR 
              GENERAL, TENNESSEE VALLEY AUTHORITY

    Ms. Crytzer. Chairman Braun, Ranking Member Whitehouse, and 
distinguished members of this Committee, thank you for the 
opportunity to appear before you today and for making today's 
hearing possible under the circumstances.
    I would also like to thank the President for nominating me 
to serve as the Inspector General of the Tennessee Valley 
Authority. I am honored.
    I am grateful to Senator Alexander and Senator Blackburn 
for their support of my nomination. For decades, Senator 
Blackburn and Senator Alexander have fought hard for 
Tennesseans, and it is both humbling and inspiring that they 
have placed their trust in me to do the same.
    I would also like to thank my family, friends, and 
colleagues for their support. First and foremost, I want to 
thank my husband, Joe Oliveri. Joe is a brilliant lawyer and my 
rock.
    I also specifically want to thank my mother, Karen Crytzer, 
who is watching this hearing electronically from our family 
home in Knoxville, Tennessee. My mom is a strong woman, and she 
is the most bighearted person I know.
    I also want to recognize my father, Jim Crytzer, who passed 
away unexpectedly 6 years ago. My father was an auditor, first 
for the Army and then for the Office of Inspector General at 
the Department of Energy in Oak Ridge, Tennessee.
    My family moved to Tennessee 25 years ago, and no matter 
how far I have traveled away since then, I have always come 
home to east Tennessee.
    Growing up, my parents instilled in me and my siblings a 
respect for service, the importance of integrity and fair 
dealing, and a steadfast appreciation for precision and 
details. Those are important values that continue to guide my 
life and work today.
    For the last 6 years, I have had the privilege of serving 
at the Department of Justice. For me, public service is a 
higher calling. The day I was sworn in as an Assistant United 
States Attorney is one I will not forget. That day, in front of 
my colleagues, I took a solemn oath to support and defend the 
Constitution of the United States. I committed to doing 
justice.
    Every day in my work at the Department, I strive to be 
independent and objective, to do justice. As an AUSA, I led 
criminal and civil fraud investigations and audits in a fair, 
impartial, and meticulous fashion. We followed the facts where 
they led us and applied the relevant law to the facts as we 
found them, without interference or favor.
    In my office at the Justice Department, I keep a piece of 
paper posted above my computer. That piece of paper reads: 
``Far and away the best prize that life offers is the chance to 
work hard at work worth doing.'' President Theodore Roosevelt 
delivered these words in 1903, before the Tennessee Valley 
Authority was created, but they still ring true today. Those 
words stand as a constant reminder to seek out the hard work 
that is truly worth doing.
    That is what led me to serve at the Department of Justice, 
and it is what brings me here today. In the Tennessee Valley 
Authority Act, Congress charged the TVA with a unique mission, 
to improve the quality of life for the people of the Tennessee 
Valley through technical innovation, the provision of low cost 
power, and environmental stewardship. TVA's effectiveness 
depends on public trust. That trust must be earned and 
maintained. It can be lost forever on any day, at any moment.
    By conducting rigorous oversight, the Office of Inspector 
General plays a critical role in ensuring that the TVA 
continues to foster and earn the public's trust. I would be 
honored to lead the Office of Inspector General's crucial work 
to prevent and detect waste, fraud, and abuse within TVA.
    If I am fortunate enough to be confirmed, I will remain 
independent and impartial in my undertakings, including audits, 
evaluations, and investigations. I will act with integrity and 
be a fair and honest dealer. I am committed to the rule of law.
    I promise to work hard to make the Tennessee Valley 
Authority more efficient, effective, and accountable, so that 
it can make life better for the people of the Tennessee Valley, 
my family included. To return to the words of President 
Roosevelt, that is certainly work worth doing.
    Thank you again for the opportunity to appear before you 
today. I appreciate your consideration of my nomination, and I 
look forward to answering your questions.
    [The prepared statement of Ms. Crytzer follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]   
    

    
    Senator Braun. Thank you.
    Before we take questions from members of the Subcommittee, 
I have to ask the following questions that we ask of all 
nominees on behalf of the Committee.
    Do you agree, if confirmed, to appear before this Committee 
or designated members of this Committee and other appropriate 
committees of the Congress and provide information, subject to 
appropriate and necessary security protection, with respect to 
your responsibilities?
    Ms. Harwell. Yes, sir.
    Ms. Crytzer. I do.
    Mr. Noland. I do.
    Senator Braun. Do you agree to ensure that testimony, 
briefings, documents, and electronic and other forms of 
information are provided to this Committee and its staff and 
other appropriate committees of jurisdiction in a timely 
manner?
    Ms. Harwell. Yes, sir.
    Mr. Noland. Yes, sir, I will.
    Ms. Crytzer. I do.
    Senator Braun. Do you know of any matters which you may or 
may not have disclosed that might place you in any kind of 
conflict of interest if you are confirmed?
    Ms. Harwell. No, sir.
    Mr. Noland. No, sir.
    Ms. Crytzer. No.
    Senator Braun. Thank you for the responses.
    I will begin the questioning by recognizing myself for 5 
minutes.
    The first question will be for Dr. Harwell, after I go 
through this opener.
    As I noted during my opening statement, the TVA has 
received one of the first early site permits from the U.S. 
Nuclear Regulatory Commission to construct a small modular 
nuclear reactor. This permit marks a milestone in our Nation's 
efforts to deploy advanced nuclear technologies.
    Question for Dr. Harwell. How should the TVA, as a Federal 
organization, support innovative Federal infrastructure 
projects while providing reliable, affordable, clean energy to 
TVA ratepayers?
    Ms. Harwell. Sir, thank you for the question. TVA does in 
fact have a very diverse portfolio. As you mentioned, nuclear 
energy plays a very important role in that. You mentioned the 
permits that have been issued, and I think they continue to 
lead the way in not only investment but innovation to bring new 
technology and also make sure that technology is safe, always 
within the back of their minds what is best for the ratepayers.
    Senator Braun. Thank you.
    Dr. Noland, do you believe that the TVA has an obligation 
to continue leading the energy sector in making these 
investments?
    Mr. Noland. Mr. Chair, I do. I feel that it is important 
that the TVA continue work to diversify its portfolio 
deliverables. Central to that is work within the nuclear space. 
There are a number of innovations that are underway. You have 
referenced the opportunity for modular reactors. If confirmed 
to the board, I look forward to the opportunity to help lead 
those efforts and be a part of that strategic perspective 
envisioned from the board.
    Senator Braun. A follow up question for each one of you 
before I get to Ms. Crytzer. How long do you envision until we 
will have the first modular advanced nuclear reactor up and 
running in your grid?
    Ms. Harwell. Senator, I appreciate the question. I am not 
sure that I am capable of answering that question. But I know 
that the sooner, the better.
    Mr. Noland. Mr. Chair, I concur with that response. I do 
not have the particulars related to that matter. But I am 
confident that staff will push forward with due speed.
    Senator Braun. Very good.
    Ms. Crytzer, the TVA Inspector General is a unique role, as 
a nominee is tasked with ensuring the agency is meeting both 
the needs of local ratepayers, but also serving the best 
interests of the Nation as a whole. Your experience prosecuting 
fraud cases as the Assistant U.S. Attorney in Kentucky gives 
you a perspective from the other side of these investigations. 
The first question is, how does your experience as an Assistant 
U.S. Attorney prepare you particularly for this role?
    Ms. Crytzer. Senator, one of the most important things 
about the Inspector General position is its transparency, its 
objectiveness, and its independence. As an Assistant United 
States Attorney, I was able to practice all three of those 
qualities in working investigations through indictment and 
ultimately to prosecution.
    Senator Braun. Are there any particular cases in your span 
of time that come to mind that would be especially applicable 
to what you see ahead in this role?
    Ms. Crytzer. Senator, one investigation, it was actually 
the last case that I tried before coming to the Department of 
Justice to work, was the case United States v. Lonnie Hubbard. 
I think it is a good example of how in the U.S. Attorney's 
office, you have a multidisciplinary approach. For that 
investigation, we had auditors, investigators, we had special 
agents. We even had folks from the pharmacy board working with 
us.
    We took that case from a large set of facts, spreading 
really from Ohio down to Florida, and figured out how to put 
that case together, how to charge that case, and how to be 
effective in stopping the bad conduct that was ongoing.
    Senator Braun. Thank you.
    Senator Whitehouse.
    Senator Whitehouse. Thanks, Chairman Braun, and thanks to 
all the witnesses for being here. I appreciate it.
    To follow up on Senator Braun's questions about nuclear 
power, one of our goals--as you may know, this is the 
Environment and Public Works Committee--that has pushed very 
hard and worked in very bipartisan fashion to reform the 
Nuclear Regulatory Commission, so that innovative nuclear 
strategies can be approved and cleared and brought online 
safely.
    One of our goals in doing this together has been to work 
toward technologies that present the prospect of allowing us to 
re-use nuclear waste, spent nuclear fuel. Now, because the TVA 
has had old line nuclear plants online for some time, it has 
nuclear waste stored at two of its facilities. I wanted to flag 
for both President Noland and for Speaker Harwell that I think 
in most accounting, that would be a pretty significant 
liability as you are developing nuclear technologies for TVA 
and encouraging the development of those technologies.
    I hope that you will keep an eye on the prospect for the 
latest generation of nuclear technologies, to actually take 
that waste on your facilities and turn them into a valuable 
electricity providing product.
    Ms. Harwell. I would certainly do that, to be committed to 
that.
    Mr. Noland. I would also be committed to that, and look 
forward to learning more about that technology.
    Senator Whitehouse. Another concern that I have is that 
particularly around the State House and around Congress, the 
fossil fuel industry kind of can't help itself but to try to 
meddle politically, even in market decisions. I would like to 
have both of the two board members' assurances that if the 
fossil fuel industry comes peddling political schemes that are 
not in the best interests of the TVA ratepayers, do not 
contribute to security and low rates, that they will not be 
treated favorably by you as a board member.
    Ms. Harwell. I will commit to that, sir.
    Mr. Noland. You also have my commitment, and would note the 
fact that TVA has pledged to hold rates constant through the 
close of this decade. Much of their ability to do so is their 
focus on efficiencies and a diversified portfolio.
    Senator Whitehouse. Yes, and I think the risks that come 
with continuing to release carbon emissions are ones that will 
have effect throughout the TVA service area if we don't get 
ahead of it. It is usually kept off the books, it is what is 
called a negative externality in economics talk. But I hope 
that as board members, you will be aware of negative 
externalities as well as things that are formally on your 
books.
    Ms. Harwell. Yes, sir.
    Mr. Noland. Yes, sir.
    Senator Whitehouse. And Ms. Crytzer, welcome. I did a few 
years in the Department of Justice as our United States 
Attorney. So I am glad to see somebody from the Department of 
Justice in this position.
    Unfortunately, in this Administration, we are seeing a 
very, to me, concerning view of what an inspector general is 
supposed to be. As soon as one becomes the least bit difficult 
or controversial, they seem to be run out the door, sending a 
message to all inspectors general to go along to get along.
    It is not my view that the role of inspectors general that 
they are there to go along to get along, particularly 
politically. They are there to do a hard job, answer difficult 
questions, investigate fairly, and get good results for the 
ratepayers and for the board.
    Do you agree with that sentiment, and do you have any 
concerns about the way the Administration is treating 
inspectors general, specifically when you allow that treatment 
to pull you back in the performance of your duties?
    Ms. Crytzer. Senator, as I mentioned earlier to Chairman 
Braun, one of the most important qualities for an inspector 
general is that he or she be independent and objective. It is 
right there in the Inspector General Act. If I were fortunate 
enough to be confirmed, I intend to do my job independent and 
objectively, without any undue influence.
    Senator Whitehouse. Let me close out my time with a word 
about Senator Alexander, who supported all of your nominations. 
He has been instrumental in all of the TVA nominations during 
the 10-plus years that I have been in the Senate. I suspect, 
given the timing, that you will be the last TVA nominees that 
Senator Alexander has this role in supporting, because of his 
announced retirement from the Senate.
    I just wanted to take a moment to say that it has been a 
pleasure working with him. He is a man of great honor and 
dignity. I think he has served the country and the TVA well 
with people who he has recommended and supported. So on this 
occasion, for Senator Alexander, a compliment from his friend, 
and best wishes.
    Senator Braun. Thank you, Senator.
    Senator Boozman.
    Senator Boozman. Thank you, Mr. Chairman. I want to echo 
what my friend, Senator Whitehouse, said about Senator 
Alexander and the fact that he has worked so hard in regard to 
this agency. It is so important for that region of the country.
    Coming from Arkansas, adjacent, I understand the 
significance in everything it does. Again, I also want to 
commend Senator Alexander for all he has done through the years 
in a very, very positive way. Not only with that issue, but so 
many others.
    Ms. Harwell, tell me, now, my experience is that things 
work best when the Federal Government gets along with the 
people they serve, local government and all the stakeholders. 
You have had a lot of experience in State government. Tell me 
how you feel like that you are in a position to do that in a 
good way.
    Ms. Harwell. Thank you, Senator. Indeed, my experience as 
both a House member and then speaker of the House led me to 
understand just how important it is to have a good working 
relationship with not only Federal officials, but certainly 
other State officials, and then that government that is closest 
to the people, the county and city officials.
    So throughout my time in service in State government, I 
have prided myself on having a good working relationship with 
my colleagues in government.
    Senator Boozman. Good.
    Ms. Harwell, Mr. Noland, TVA has a responsibility to the 
region it serves to continue to provide reliable, affordable 
electricity. That is balanced out, though, with maintaining 
high standards with regard to the environment, continuing to 
manage all the resources under their care in a professional, 
responsible manner.
    How do you see TVA balancing keeping rates low, while still 
providing safe and reliable electricity?
    Mr. Noland. Senator, I think the work that TVA has put in 
place over the course of the past couple of years chart a path 
forward for the future. TVA has made a commitment to ensure 
that it does not increase rates for the remainder of the 
decade. It has also put in place a series of accountability and 
stewardship elements that are central to the activities of the 
board.
    As board members, we help to frame and shape a vision for 
the organization, and then to hold its executives accountable 
for moving in that direction. I look forward to being a part of 
that, to learning more about those opportunities.
    But I have also had the direct opportunity to see the 
benefits of TVA up close and personal. The economic development 
work that occurs in our area is central to the future of rural 
communities all across the south. I also have had the chance to 
benefit personally from the amenities of many of the 
recreational opportunities that affords.
    All those elements together create an entity that is vital 
for the future of our region of this country.
    Senator Boozman. Thank you.
    Ms. Crytzer, I really don't have any questions for you, but 
I did enjoy visiting with you and talking to you at length 
about your responsibilities in the future. I appreciate you, I 
appreciate Ms. Harwell and Mr. Noland, for your willingness to 
serve.
    This is something that, these aren't glamorous positions. 
But they are so, so very important, and really the underpinning 
of our economy, the underpinning of the region, of that part of 
the country.
    So we do appreciate your service and your willingness to 
serve, and look forward to supporting all of you as we go 
forward through the process.
    Ms. Crytzer. Thank you, Senator.
    Senator Boozman. Thank you.
    Senator Braun. Thank you, Senator Boozman.
    Senator Carper.
    Senator Carper. Thanks, Mr. Chairman.
    I can just barely see you out there.
    [Laughter.]
    Senator Carper. Any of you from Tennessee, is that what I 
understand?
    My wife grew up in Boone, North Carolina, in western North 
Carolina. She owns, we own, a farm in Zionville, North 
Carolina. If you drive west out of Boone, you drive into 
Tennessee, turn around and come back into North Carolina, you 
go to her farm. She went to Appalachia State as an 
undergraduate and University of Tennessee for graduate school. 
So we feel some kinship to all of you.
    I thank you for your willingness to take on these 
responsibilities, which I think are important responsibilities. 
I must say, in terms of the kind of progress that has been made 
at TVA with respect to the mix of energy sources that they rely 
upon, and they still produce some electricity, as we know, with 
coal and fossil fuels, but a whole lot with hydro and a growing 
amount, still quite a bit with nuclear, which I think is 
appropriate. But some growing commitment and investment in 
renewables, too.
    Let me just ask, if I can, Ms. Harwell, I feel like I 
should call you Speaker. People ask me what they should call 
me, I have been a treasurer, Congressman, Governor, Senator, 
and retired Navy captain. People ask me what they should call 
me, and I say, ``Excellency.''
    [Laughter.]
    Senator Carper. So what should people call you?
    Ms. Harwell. Senator, Ms. Harwell is just fine.
    Senator Carper. All right, Ms. Harwell. If you had to say 
there is one overarching goal that you would have if confirmed 
to serve, what would be something you would be thrilled to be 
able to accomplish as a member of this body?
    Ms. Harwell. Well, I think it would mean a great deal to me 
to ensure that TVA keeps heading in the right direction, 
trending the right way when it comes to its fiscal house. If 
you don't have your financial house in order, it is hard for 
you to live up to your other opportunities that would exist.
    So I am pleased that they have a plan both for debt 
reduction and to reform their pension program. It would be my 
commitment as a board member to monitor that, and I would be 
very pleased to see TVA continue to get sounder footing in its 
financial conditions.
    Senator Carper. Dr. Noland, same question. What would be, 
at least initially, your greatest desire to accomplish, be part 
of accomplishing?
    Mr. Noland. Senator, thank you for that question. I enjoyed 
our conversation the other day, with the story of your 
``Excellency'' title.
    Senator Carper. As did I.
    Mr. Noland. With respect to an overarching goal, it would 
be the opportunity to play a small role in the continuation of 
the mission of the TVA to improve the quality of life for the 
people of our region.
    As you look across the rural south, there are communities 
that are being left behind in a rapidly changing economic 
world. The opportunity for TVA to play a role in economic 
development, job recruitment, and business expansion in rural 
areas of the south is something that I would look forward to 
the opportunity to play a small role in.
    Senator Carper. All right, thank you.
    Ms. Crytzer, if I could, how are you today? Welcome. Very 
nice to see you.
    In recent weeks, our President has fired or removed, I 
think, a number of inspectors general who were investigating 
his Administration. His actions, for me at least, send a 
troubling message to the remaining inspectors general that we 
have. They play an important role, as you know, in the system 
of checks and balances on which literally our democracy relies.
    In the last 2 months, I think the President has fired the 
IG for the Intelligence Committee, Michael Atkinson, for his 
involvement with the Ukraine whistleblower complaint. He has 
replaced the Acting Defense Department IG, Glenn Fine, who was 
highly regarded. He was voted, in fact, by his peers to chair 
the Watchdog Panel overseeing the COVID-19 stimulus funds, but 
he fired him.
    The President has replaced the Acting Inspector General for 
the Department of Health and Human Services, Christi Grimm, 
soon after she released her report on COVID-19 hospital supply 
shortages and testing delays. And he announced, just this past 
Friday night, he was firing the Inspector General of the State 
Department, Steve Linick, reportedly for opening an 
investigation into whether Secretary Pompeo and his wife were 
using State Department employees inappropriately.
    So I would have a question for you, not a trick question, 
but just looking for an honest answer. I have these core values 
that sort of guide me in my life, you probably do, too. And for 
me, the first one is, figure out the right thing to do, and not 
what is easy, not what is expedient, but what is right, and 
just try to do what is right.
    The second is, embrace the Golden Rule, treat other people 
the way we want to be treated. The third is focus on excellence 
in everything we do, if it isn't perfect, make it better. 
Finally, just don't give up. Just don't give up.
    And with respect to--different people have different views 
of what is right or wrong, but I would--I don't mean to put you 
on the spot, but honestly tell us, do you think it is OK to 
remove inspectors general from their jobs simply because they 
aggressively and independently pursue evidence of wrongdoing, 
even if that wrongdoing is conducted at the highest political 
levels?
    Ms. Crytzer. Senator, the most important aspect of an 
inspector general is that someone be independent and objective. 
I don't know the full situation for each of those instances 
that you have mentioned. But what I can commit to you today is 
that if I am fortunate enough to be confirmed, I will do my job 
to the best of my abilities, consistent with the Inspector 
General Act, and that includes independence and objectivity.
    Senator Carper. Good. Just another similar question, just 
to go down that path a little further. Do you think it is OK 
for the President to subject inspectors general to public 
attacks on their credibility, on their independence, on their 
professionalism, simply because the report information that is 
inconsistent with the President's narrative?
    Ms. Crytzer. Senator, again, I am not familiar with all the 
facts in the situation that you have just mentioned. But what I 
can tell you is that if I were fortunate enough to be 
confirmed, I would do this job objectively and with 
independence. And I wouldn't let undue influence affect the way 
that I do my work.
    Senator Carper. OK.
    Back to Dr. Harwell and Dr. Noland. I have been on this 
Committee now for 19 years. I have always encouraged folks who 
have been nominated to serve on TVA to endeavor to make TVA an 
industry leader when it comes to clean energy, energy 
efficiency, and safety.
    Last year, TVA reported that it was on target to reduce 
carbon emissions by 70 percent from 2005 levels by 2030, 
without ``impacting reliability or adversely increasing power 
rates.'' That is a laudable goal.
    But I challenge TVA to go even further. Our Nation needs to 
be at what we describe as net zero emissions by no later than 
2050, or we are not going to meet the climate goals that are 
set for us and for our planet.
    I don't ask a lot of yes or no questions, but I will ask 
both of you a yes or no question. That would be, if confirmed, 
do you commit to continuing clean energy investments and 
ensuring that TVA is a national leader in technological 
innovation and environmental stewardship? Yes or no.
    Ms. Harwell. Yes, sir, I will.
    Senator Carper. Thanks very much.
    Mr. Noland. Senator, yes, sir, I will.
    Senator Carper. All right, thanks very much. TVA's 2019 
integrated resource plan calls for a significant expansion in 
solar energy of up to 14 gigawatts by 2038. You all will still 
be serving, I am sure, on the TVA then. So this is germane. If 
confirmed, do you commit to fostering and supporting solar 
investments in the Tennessee Valley and at TVA? And if so, how 
might you do that?
    Dr. Noland, would you like to go first?
    Mr. Noland. Senator, thank you for that question. I would 
echo your comments regarding the positive directions of that 
commitment. In fact, there was a story in the Johnson City 
Press earlier this week that talked about the first TVA solar 
farm in Washington County, which is the county that I call 
home.
    At our institution, there are more than five buildings on 
our campus that have solar panels on the roofs, so that 
demonstrates my personal commitment to renewable energy, all of 
which have been installed during my tenure as president. I 
would look forward to taking those local initiatives across the 
areas served by the TVA.
    Senator Carper. OK.
    Same question for Dr. Harwell.
    Ms. Harwell. Yes, sir, I would commit to that, with always, 
in the back of my mind, concern for the ratepayers.
    Senator Carper. How would you go about doing that? I 
appreciate the commitment. But how might you go about doing 
that?
    Ms. Harwell. Well, I think the TVA has taken the first step 
by holding rates steady for a decade, especially during this 
very challenging time. That is important.
    Senator Carper. When I say doing that, I asked you if you 
would be committed to fostering and supporting solar 
investments in the Tennessee Valley, TVA, that is what I asked. 
The question was, how would you go about doing that?
    Ms. Harwell. Well, I think it is new, it depends on the 
geography, the area that we are talking about. But I certainly 
think that I would commit to encouraging the staff to look into 
the possibilities of expanding solar energy.
    Senator Carper. All right, thank you.
    Dr. Harwell, let me just ask one more question. Dr. 
Harwell, do you question the conclusions of the issued Fourth 
National Climate Assessment, and also GAO reports that state 
our economy is at risk if we do not take climate actions? And 
if so, why?
    Ms. Harwell. I do believe that the climate is changing, and 
I do think that we need to be aware of it, and further 
scientific study needs to be enacted. But I am committed, as I 
believe the TVA is, to lower their emissions.
    Senator Carper. All right, thank you.
    Mr. Chairman, I think my time has expired.
    What do you think, more than expired?
    Senator Braun. I gave you a lot of time.
    Senator Carper. You really did, I am grateful. Thanks so 
much. I owe you one.
    Senator Braun. You are welcome.
    Senator Carper. Thank you all.
    Thank you.
    [The prepared statement of Senator Carper follows:]

                  Statement of Hon. Thomas R. Carper, 
                U.S. Senator from the State of Delaware

    Thank you, Mr. Chairman, for convening this hearing and 
continuing the conversation we began during our hearing on this 
very topic in April 2018, less than a year ago. The subject is 
particularly timely now, given recent actions by the Trump 
administration.
    The Clean Air Act requires EPA to partner with States to 
address air pollution, especially air pollution that crosses 
State borders. The Act ensures all States are good neighbors 
when it comes to clean air.
    These protections are critical for my home State of 
Delaware because our State is located at the end of what I call 
``America's tailpipe.'' This means that other States' dirty 
emissions from cars and power plants drift east into our State 
and other downwind States. This cross-State air pollution makes 
it impossible for Delaware to meet national health air 
pollution standards without the cooperation of upwind States 
and the EPA.
    However, instead of working with States on solutions to our 
clean air problems, Administrator Wheeler's EPA has actually 
made it more difficult for States, especially downwind States, 
to meet clean air goals.
    For example, Wheeler's EPA has rejected 126 Clean Air Act 
petitions filed by three States--Delaware, Maryland, and 
Connecticut--that ask EPA to require upwind power plants to 
install, or consistently operate already installed, pollution 
controls.
    Furthermore, Administrator Wheeler's EPA is cutting State 
air program funding, weakening enforcement and rolling back 
critical clean air protections that will exacerbate the ongoing 
air pollution confronting our States. Here are just three 
examples of such rollbacks.
    First, Administrator Wheeler told members of this Committee 
in January that, ``no one wants a 50-State deal more than I 
do,'' when asked about negotiating a ``win-win'' compromise on 
vehicle fuel economy and greenhouse gas standards with 
California. But 2 weeks ago, EPA walked away from even the 
pretense of negotiations, despite being asked by every single 
automaker, utilities, auto parts suppliers, and others to 
strike a deal.
    Second, last September, Administrator Wheeler signed a 
proposal at the behest of the oil and gas industry to repeal 
basic rules requiring them to control leaking methane gas. 
Administrator Wheeler's own proposal states the rollback would 
increase leaking methane by 380,000 short tons, increase 
leaking volatile organic compounds by 100,000 tons, and also 
result in 3,800 tons of leaking hazardous air pollution.
    The proposal says EPA ``expects [the proposal] may degrade 
air quality and adversely affect health and welfare,'' but EPA 
has declined to quantify the negative health effects or 
determine how many people will be affected. EPA has also 
declined to determine how this proposal will affect States' 
ability to meet air quality standards.
    So EPA is admitting its methane rollbacks will increase air 
pollution, but leaves States in the dark on how this additional 
pollution will harm their constituents and whether it will push 
them into nonattainment or not.
    Third, in the eleventh hour before the Government shutdown 
in December 2018, Administrator Wheeler signed a proposal that 
guts the legal foundation of the Mercury and Air Toxics 
Standards--also known as the MATS rule. Using outdated data, 
EPA decided that some benefits, like reductions in cancer, 
birth defects, and asthma attacks, are no longer important for 
the agency to count, and proposed action that puts the MATS 
rule in legal jeopardy. Undermining the MATS rule could result 
in installed mercury and air toxic control technology to be 
turned off, putting downwind States at particular risk.
    Every stakeholder--from the coal fired utilities who comply 
with the rules, to religious leaders, to health experts, to 
environmental organizations, to the Chamber of Commerce--have 
urged this Administration not to take this step. Administrator 
Wheeler has so far ignored these pleas to keep the MATS rule in 
place and effective.
    These are just three examples of EPA's rollbacks of clean 
air regulations that will likely result in increased air 
pollution across this country. There are many more that I've 
not mentioned today. It's clear that these rollbacks harm our 
air quality and public health, yet EPA refuses to model any of 
those negative effects.
    So we have a situation in which Administrator Wheeler's EPA 
is denying downwind States' efforts to hold upwind States 
accountable for their own air pollution and expanding air 
pollution that crosses State borders, while taking away 
critical financial tools and programs that help States address 
pollution.
    Cooperative federalism means cooperation between the 
Federal Government and the States to solve problems. As we will 
hear today, many States are not receiving much cooperation from 
this Administration. Instead, States are finding themselves 
without a Federal partner in addressing these serious problems.
    We may have changed Administrators, but clearly, we have 
not eliminated the problems with this Administration.
    I look forward to today's hearing.

    Senator Braun. If there are no further questions for today, 
members may also submit follow up questions for the record by 4 
p.m. on Friday the 22nd. The nominees should respond to those 
written questions by 4 p.m. on Thursday, May 28th.
    I want to thank you all for the willingness to appear 
before this Subcommittee today.
    This hearing is adjourned.
    [Whereupon, at 3:59 p.m., the hearing was adjourned.]

                                 <all>
</pre></body></html>
